V

ORIGINAL
Supreme Court.. U.S.
FILED

JUL 1 3 2020
IN THE

OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES

WILLIAM RUSSELL WILLIAMS — PETITIONER
(Your Name)
vs.

PEOPLE OF THE STATE OF MICHIGAN —
RESPONDENTS) ON PETITION FOR A WRIT OF
CERTIORARI TO

STATE OF MICHIGAN - COURT OF APPEALS
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

WILLIAM RUSSELL WILLIAMS
(Your Name)
BELLAMY CREEK CORRECTIONAL FACILITY
1727 West Bluewater Highway

(Address)
Ionia, MI 48846

(City, State, Zip Code)
(616) 527-2510
(Phone Number)

QUESTION(S) PRESENTED
I. Was William Williams denied his right to due process, to present a defense, and to a properly
instructed jury where the trial court refused to provide a mitigation instruction, thereby removing
the primary factual issue in dispute at trial from the province of the jury?
Mr. Williams answers: “Yes.”
The prosecution answered: “No.”
The Court of Appeals answered: “No.”
The trial court answered: “No.”
II. Did the prosecutor’s argument that assault with intent to murder should be decided based on the
actus reus and not the mens rea deny Mr. Williams a fair trial? Alternatively, did defense counsel
render ineffective assistance of counsel by failing to fully articulate the grounds for his objection
to the prosecutor’s improper argument, prejudicing Mr. Williams and necessitating a new trial?
Mr. Williams answers: “Yes.”
The prosecution answered: “No.”
The Court of Appeals answered: “No.”
The trial court answered: “No.”
III. Was Mr. Williams sentenced on the basis of inaccurate information and in violation of his right to
due process where several offense variables were incorrectly scored, thus inflating the minimum
guideline range? Is resentencing therefore required?
Mr. Williams answers: “Yes.”
The prosecution answered: “No.”
The Court of Appeals answered: “No.”
The trial court answered: “No.”
IV. Is Mr. Williams entitled to be resentenced where the trial court imposed a sentence for assault with
intent to murder that was more the twice as long as the top of his recommended guideline range,
and its stated basis for the sentence imposed largely recited the elements of the offenses Mr.
Williams had been convicted of and the facts that caused his guideline range to be so high in the
first place?
Mr. Williams answers: “Yes.”
The prosecution answered: “No.”
The Court of Appeals answered: “No.”
The trial court answered: “No.”

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
[ V ] All parties do not appear in the caption of the case on the cover page.
A list of
all parties to the proceeding in the court whose judgment is the subject of this petition is as
follows:
TUSCOLA COUNTY PROSECUTOR - Attorney for Plaintiff-Appellee

TABLE OF CONTENTS

OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

6

REASONS FOR GRANTING THE WRIT

16

CONCLUSION

36

INDEX TO APPENDICES

APPENDIX A - Decision of the State Court of Appeals

APPENDIX B - Decision of the State Trial Court

APPENDIX C - Decision of the State Supreme Court Denying Review

APPENDIX D - People’s Exhibit 57 (Michigan)

i

TABLE OF AUTHORITIES CITED

CASES

PAGE NUMBER

Maher v People,
10 Mich 212 (1862) ........
People v Bennett,
290 MichApp 465 (2010)
People v Brown,
294 MichApp 377 (2011)
People v Cornell,
466 Mich 335 (2002) ......
People v Dixon,
263 Mich App 393 (2004)
People v Dixon-Bey,
321 Mich App 490 (2017)
People v Francisco,
474 Mich 82 (2006) ........
People v Geddert,
500 Mich 859 (2016) ......
People v Ginther,
390 Mich 436 (1973) ......
People v Glenn,
295 Mich App 529 (2012)
People v Hardy,
494 Mich 430 (2013) ......
People v Hawthorne,
474 Mich 174(2006) ......
People v Lawhorn,
320 MichApp 194 (2017)
People v Lockett,
295 Mich App 165 ..........
People v Lockridge,
498 Mich 358 (2015) ......
People v McGraw,
484 Mich 120(2009) ......
People v Milbourn,
435 Mich 630 (1990) ......
People v Mitchell,
301 Mich App 282 (2013)

17, 18
19
19
18
22
35
3,24
24
19
26, 27, 32
26
16
31
26
30
27
passim
18
ii

People v Pickens,
446 Mich 298 (1994) ............
People v Pouncey,
437 Mich 382 (1991) ............
People v Quinn,
194 MichApp 250 (1992).....
People v Smith,
482 Mich (2008)...................
People v Stanaway,
446 Mich 643 (1994) ............
People v Steanhouse (On Remand)
322 MichApp 233 (2017).....
People v Steanhouse,
500 Mich 453 (2017) ............
People v Sullivan,
231 MichApp 510 (1998).....
People v Vaughn,
128 MichApp 270 (1983).....
People v Wilson,
265 Mich App 386 (2005).....
Strickland v Washington,
466 US 668 (1984)................
Townsend v Burke,
334 US 736 (1948)................

19
18
19
34
23
31,34
30
16
19
27
22
24

STATUTES AND RULES
MCL 750.83 ....
MCL 750.84 15,
MCL 750.85 ....
MCL 769.34 ....
MCL 777.16d ...
MCL 777.31 ....
MCL 777.32 ....
MCL 777.35 ....
MCL 777.37 ....
MCL 777.40 ....
MCL 777.49 ....
MCL 777.57 ....

20
20, 32
27
24
32
24, 25
25
26
26, 27, 28, 32
28
33
33
iii

35
29,33
32
35
3,24
3, 24
3,22
3,24

MCL 777.61 .......................
MCL 777.62 .......................
MCL 777.65 .......................
MCL 791.234 .....................
Mich Const 1963, Art 1, §17
US Const Amend V............
US Const, Amend VI..........
US Const Amend XIV........
MRE 609

19

OTHER

iv

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.

OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
[ ] reported at________________________________________
[ ] has been designated for publication but is not yet reported; or,
unpublished.

to

; or,
[] is

The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at________________________________________
[ ] has been designated for publication but is not yet reported; or,
unpublished.

to

or,
[ ] is

[V ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix A
to the petition and is
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,

.; or,

[V ] is unpublished.
The opinion of the__
appears at Appendix

court
to the petition and is

[ ] reported at____
[ ] has been designated for publication but is not yet reported; or,
unpublished.

1

.; or,

[3 is

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case was_

[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of Appeals
on the following date:___________________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted to
and including__________
(date) on
(date)
in Application No.____ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[V ] For cases from state courts:
The date on which the highest state court decided my case was December 26. 2019 .
A copy of that decision appears at Appendix_C_______ .
[ ] A timely petition for rehearing was thereafter denied on the following date:
________________________, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted to
and including__
(date) on
(date) in
Application No..
A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

A defendant accused of a crime has the right under the federal and state constitutions

I.

to the effective assistance of counsel. US Const, Amend VI; Const 1963, Art 1, § 20;
Strickland v Washington, 466 US 668 (1984).

II.

Due process requires that a defendant be sentenced on the basis of accurate information.
Townsend v Burke, 334 US 736 (1948); People v Francisco, 474 Mich 82, 86 (2006).
US Const Amends V, XIV; Mich Const 1963, art 1, §17.

III.
Judgment Appealed From and Relief Sought
William Williams was charged with assault with intent to murder (AWIM), lying to police,
and falsely reporting a felony after making a number of false statements to authorities before
confessing that he got into a fight with his wife after she woke him up, threatened to hit him with
a maul, then either reached for it or held it up. He admitted he had no excuse, that he “just lost it,”
and “grabbed it and then went stupid,” hitting her in the head with the maul.
Mr. Williams requested that the mitigating circumstances instruction be provided so that
his jury could decide if it believed he “lost it,” and if an ordinary person might act in the heat of
passion when woken up in the middle of the night and then verbally and physically threatened with
a maul. The trial court would not read the instruction.
In closing, Mr. Williams’ counsel argued that the prosecution had failed to prove that Mr.
Williams had intended to kill his wife, so the jury should find him guilty of the lesser included
offense of assault with intent to commit great bodily harm (GBH). The trial court overruled defense
3

counsel’s objection when the prosecutor began to give “some examples of what might be [GBH],”
in rebuttal, endorsing the prosecutor’s assertion that GBH and AWIM are differentiated based on
the physical act, not the defendant’s intent. The prosecutor then argued GBH is where the
defendant hits someone in the leg with a bat or in the hand or arm with a crowbar, or kicks someone
in the ribs; what Mr. Williams did simply did not qualify as GBH.
Mr. Williams, who at 59 years old had no prior interactions with the criminal justice
system, was assessed 20 points under PRV 7 because of his concurrent convictions for
initially lying to police about what had happened. This added years to his recommended
minimum sentence. His guideline range was further increased by the trial court’s novel
scoring of several offense variables, which resulted in a minimum guideline range of 135 to
225 months.
The trial court more than doubled the high end of that guideline range, sentencing
Mr. Williams to 40 to 80 years in prison. Even though his wife was “very much alive,” the
court imposed what would have constituted a departure sentence under the guidelines for
murder. The court justified its sentence based on its conclusion that he had treated his wife
with excessive brutality, that he intended to kill her, and that he tried to cover up what he
did by lying to police and not coming forward right away.
Mr. Williams appealed, but the Court of Appeals found no error in his trial or sentence. It
concluded that he was not entitled to a mitigating circumstances instruction based on its apparent
view that the instruction should not be provided unless the victim first accomplishes a physical
assault on the defendant. It held the prosecutor was simply arguing the defendant’s intent could be
inferred based on the nature of the attack when he gave a laundry list of GBH-offenses, even
though the prosecutor said the opposite in front of the jury when he responded to the objection.

4

After affirming the scoring of several of the Offense Variables (OVs) Mr. Williams
challenged, the Court of Appeals affirmed the reasonableness and proportionality of his 40 to 80
year sentence, finding that the trial court had adequately explained its sentence by articulating the
specific facts that caused the jury to convict him of AWIM and lying to police, and which caused
the court to assess points under OVs Is, 2, 3,4, 5, 6, 7,10, and 19.
Mr. Williams seeks leave to appeal so that the Court can pass on the important
issues raised herein, and specifically clarify that trial courts do not adequately explain why
a grossly excessive sentence is more proportionate than a within guideline sentence by
noting the seriousness of the defendant’s commission of a Class A Offense, and citing the
underlying facts that caused the defendant’s guideline range to be so high in the first place.

5

STATEMENT OF THE CASE

I.

William Williams
William Williams was bom in 1958. Before being convicted of multiple felonies in this

case, he had never been convicted of any crime. (PSI, 1, 12) He worked for Palace Sports and
Entertainment (“PSE”), doing general handyman work at the different properties owned by PSE,
such as the Palace of Auburn Hills and Meadowbrook. 1988. PSI, 15; TII1, 192-93.
Mr. Williams married his wife, Christine, in 1990. PSI, 14. The couple was somewhat
isolated from their families. TI143; Till 176,183-85. They argued “a lot” about money. (Appendix
D - People’s Exhibit 57 (“Px 57”), 2-3) They did not have children, and owned a home in
Indianfields Township. TII 9.
Mr. and Ms. Williams’ relationship was strained. They slept in separate bedrooms, PSI, 11,
and in 2015, Mr. Williams met a woman - Sarah Schorsch - on an online dating site, who he paid
to have sex with him the first time that they met. TII 207, 218. Mr. Williams and Ms. Schorsch
were never intimate again, but from the time they met until he was arrested in this case, Ms.
Schorsch continued to lead Mr. Williams to believe there was a possibility of a romantic
relationship. TII 219-20. Ms. Schorsch took advantage of Mr. Williams’ apparent infatuation with
her, asking him for money for things such as groceries, rent, or money for her probation. TII 20809. In reality, Ms. Schorsch was using this money to feed the heroin addiction she and her
boyfriend shared. TII 212. In the two years that they knew each other, Mr. Williams gave Ms.
Schorsch approximately $10,000. TII 209. By May 2017, Mr. Williams was beginning to run out

1 Transcripts are identified as follows: 4/10/18 Trial Transcript = TI; 4/11/18 Trial Transcript = TII; 4/12/18 Trial
Transcript = Till; 4/13/18 Trial Transcript = TIV; 5/4/18 Sentencing Transcript = ST.

6

of money. Till 181-82. He would later tell a detective, “[Ms. Williams] was mad at me because I
spent all our money.” Px 57, 10.
In the Spring of 2017, there was a good deal of anxiety among PSE employees about their
job security. While Mr. Williams was a good worker, did not have any attendance problems or any
issues with his coworkers, TII 194, the Detroit Pistons were moving to Little Caesars Arena in
Detroit, PSE was about to cease to exist, and all employees were being asked to reapply for their
positions with the new corporate entity. TII 194-198. Future employment was not guaranteed, TII
196, and it would have been a more than 100 mile drive each way from Indianfields to the Pistons’
new arena in Detroit if Mr. Williams was retained, though he was certain he would not be. Px 57,
26.

II.

The Events of May 25 and 26,2017
When Mr. Williams got home from work on May 25, he drank a few beers with Ms.

Williams. Px 57, 31. They ate dinner and watched some TV, then he went to bed. Px 57, 31.
At around 3:00 a.m. on May 26, Mr. Williams was woken up by the sound of the television
in Ms. Williams’ bedroom, so he told her to turn it down. Px 57, 4, 35, 39. Ms. Williams had
brought a splitting maul or axe into her bedroom. Px 57, 4. “She had it in there ... Cause she had
it laying ... and she was in the bed ... and she grabbed for it.” Px 57, 11 -12. “She said I’ll hit you
with the axe.” Px 57, 35.
She was just super mad at me. She told me not to come in there, the
bedroom, but I went in there anyways. She held up the axe and I
grabbed it from her and smacked her.... I just grabbed it from her....
She had [the maul] with her. She sat up in the bed because ... she said
you need to get... out of here and I’m like give me that thing. And
then she was cussing at me and I just wacked her with it.
She said something about I’ll get this axe after you. So I went and
grabbed it and then went stupid. [Px 57, 3-4,15]
7

“I just lost it.” Px 57, 12. “I think [I hit her] just once and then I tossed the axe at her.” Px 57, 5.
Mr. Williams then went outside and sat in his car for a little more than an hour. Px 57, 39.
He went back inside at around 4:30 a.m., got ready for work, and left the house to go to work at
around 5:00 a.m. Px 57, 17-19, 39-40. He worked until around 8:00 a.m., then drove to Dearborn
to give Ms. Schorsch money that she told him she needed for court. He went back to work, then at
lunch time he put went to put flowers on his father’s grave. Px 57, 20-22, 43-45. He went back to
work for a few more hours, then left for the day at around 3:30 p.m. Px 57, 22; Till. 149.
On his way home from work he started to think about what had happened and asking
himself what he had done to his wife. When he got home he panicked and attempted to stage a
break-in by busting open the door with a prybar and by emptying some cupboards. Px 57, 23. He
went to Ms. Williams’ bedroom to check on her, and, believing she was dead, went outside. Till.
149; Px 26, 57, 18. Mr. Williams called 9-1-1 and reported that his home had been broken into,
and that his wife was bleeding in her bed with an axe nearby. Till 133-34; Px 57, 48; Px 59.
When officers arrived, Mr. Williams claimed that when he got home from work he
discovered “that someone had broken into his house and that he’d found his wife in the back
bedroom and she was in a pool of blood, unresponsive.” Til 11, 31, 59.
The officer who found Ms. Williams in her bed pulled the blanket covering her back, but
Ms. Williams rolled over and grunted, “and then she pulled the blanket up back over her head and
rolled back over.” TII12-13. Once she rolled over, he noticed the maul “on top of the blanket lying
next to her on the other side of the bed.” He radioed for EMS. TII 13-14; Till 39.
The EMTs who arrived noticed that the blood on the bed was dark and clotted. TII 108,
138. “She had a pretty large laceration on the left side of her head in the temporal region.” TII
139. “She was covered in what I believed to have been a sleeping bag...... I pulled it down, and
8

almost immediately she pulled it back up.” TII 139-40. Ms. Williams was put into an ambulance
and taken to McLaren Lapeer Regent hospital for emergency treatment. TII 111-12, 128.
Officers were immediately suspicious of Mr. Williams because the door that he used a
prybar to break could have easily been forced open with a kick or shoulder, and the drawers that
he pulled open seemed to have been “ransacked with care”—they “were just kind of pulled out
and sat on the floor, weren’t necessarily ransacked.” TII 39-40. Mr. Williams’ demeanor, which
multiple officers described as “calm” or “emotionless,” increased their suspicions. TII 11, 31, 7576, 79, 85-86, 95. “I didn’t know if he was in shock or if he was suicidal or what he was thinking.”
TII 76. “Just based on the emotionless, ghost appearance, I didn’t... know what he was thinking,
if he ... wanted to harm himself or if he was in shock.” TII 79.
III.

Mr. Williams’ Police Interviews
Mr. Williams was then interviewed by a detective at the State Police Caro Post. TII 93-94.

While waiting in the lobby to be interviewed, his demeanor was “strange,” and “more like somber
than anything.” TII 63. The detective who conducted the interview said that one or two times Mr.
Williams became upset, and had to be instructed to take a breath, but during much of the interview
he was “almost emotionless,” and “very calm and subdued.” TIV 47. He again said that he had
come home that day to discover his house had been broken into. TIV 46-47.
“[A]t the conclusion of the interview, Mr. Williams told [the detective] he did not want to
go back to the residence,” so an officer took him to a hotel to spend the night. TII 26; TIV 49. On
the way he asked to go to the hospital, but his request was not accommodated. TII 27.
The next morning, police took Mr. Williams to the Saginaw Police Department so that he
could be interviewed by a different detective. TII 26; Till 138; TIV 51. He told the detective that
he and Ms. Williams got along pretty well, but were experiencing some financial issues. Till 144.
9

He initially repeated his false break-in claim to the detective. Till 139-141. After additional
questioning he admitted that he hit Ms. Williams with the maul and staged the break-in. Till 49;
Px 57, 25. “[H]e started telling me about the stress. He started telling me that he had a lady friend
that he was spending money on which was causing problems within the home.” Till 164.
Mr. Williams told the detective that he had not planned to assault his wife, and had never
considered about doing anything like that before. Till 156, 161-62; Px 57, 8. He “seemed like I I wish I didn’t do it, ... I wish I didn’t... make that choice that moment.” Till 162. He said, “I’m
ruining everybody’s life. I’m ruining my life, ruined her life.” Px 57, 26; Till 172.
At the conclusion of the interview Mr. Williams was arrested. TIV 53. He was charged
with assault with intent to murder, four counts of false report of a felony, and one count of lying
to a peace officer during a violent crime investigation.
IV.

Ms. Williams’ Medical Treatment and Recovery
Ms. Williams’ conditions were stabilized once she arrived at McLaren, and she was then

seen by a neurosurgeon, who performed surgery on her the night she arrived. TIV 11-12, 15, 3536, 49. It was about two weeks before she began responding to doctors and acknowledging their
presence. TII171. She continued to receive treatment at McLaren Lapeer Hospital until June 15th,
when she was transferred to Heartland Rehabilitation Center. TII 170; Till 177 She was eventually
released to a partially assisted living location. Till 178
At the time of the trial Ms. Williams was able to dress herself. Till 179. She could speak,
but struggled to find words, which could be “[v]ery frustrating for her.” Till 179. “She needs
assistance of a cane to walk because of her lack of feeling.” Till 179. “There are times where she
has double vision.” Till 179. “She needs assistance with showering,” and “is only walking short
distances.” Till 179. “[S]he doesn’t have any recollection of what happened to her,” and only
10

knows that Mr. Williams did something to her because that is what she has been told by her sister.
Till 180; Til 250.
V.

The only material factual issues in dispute at trial was Mr. Williams’ intent and
whether the assault involved mitigating circumstances
The only material factual dispute at trial was whether Mr. Williams had intended to murder

Ms. Williams, and whether mitigating circumstances existed to convict Mr. Williams of the lesser
offense of assault with intent to commit great bodily harm. Mr. Williams’ counsel acknowledged
this during his opening argument:
[T]he statement that Mr. Williams gave was that his wife threatened
him with the axe on that night in questions ... Mr. Williams in his
statement said he just lost it. All this stuff building up. He lost it. He
admits hitting his wife, okay?
Mr. Williams was in such an excited state at that time he was
not thinking. He was not thinking about what was gonna happen, what
the consequences of his actions were.
So what we will be asking for is what’s called a lesser-included
offense, and a lesser included offense is intent to do great bodily harm
less than murder his wife on that night. That’s what we’ll be asking
you to find him guilty of, not the charge that they brought against him.
[TI 153-154]
Aside from intent, the facts were generally agreed upon. The EMTs who testified all
believed that Ms. Williams had been hit once, TII 124,132,139, while the doctors who treated her
testified that CAT scans indicated two separate blows. TII 165; TIV 20. Forensic testing revealed
the presence of at least two people’s DNA on the maul’s handle. Till 125-26.
Mr. Williams requested that the jury receive Michigan Model Jury Instruction 17.04 on
Mitigating Circumstances, which provides that a person is not guilty of assault with intent to
murder if the assault took place under circumstances that would have reduced the charge to
manslaughter if the victim of the assault had died. The prosecutor objected to this instruction in
writing and before closing argument. TIV 83-88.
11

The trial court agreed with the prosecutor and refused to give the instruction, finding that
no reasonable jury could find that mitigating circumstances existed in light of the fact that “the
blows had to have come from someone above her,” and “I don’t think that the one statement by
the defendant wherein he indicates that his wife said that she should use the axe or something to
that effect - and, again, we’re assuming that the axe was even in her room, which is in dispute. ...
That she brought the axe in her room.” TIV 89. “I’m convinced that applying an objective
reasonable man standard for determining provocation would indicate that a reasonable jury could
not come to the conclusion that there was provocation here. I’m so I’m not going to instruct the
jury as to 17.04.” TIV 89-90.
During closing argument defense counsel acknowledged that the jury would convict Mr.
Williams of six counts. Because Mr. Williams was prohibited from claiming mitigation, he argued
in closing only that Mr. Williams did not have the intent to murder Ms. Williams, and that the jury
should therefore convict him of the lesser offense of assault with intent to commit great bodily
harm: “Now, did he intend to kill her with that axe? No, he did not intend to kill her with that axe.”
TIV 108, 113-14.
On rebuttal, the prosecutor advised the jury: “Assault/great bodily harm, the judge is going
to give you the instructions. I’d like to give you some examples of what might be assault/great
bodily harm. That might be where someone grabs a baseball bat and hits someone—” TIV 116.
This drew an objection from the defense. The prosecutor responded that, “it is an argument by way
of what could constitute assault/great bodily harm. And that’s being presented to the jury, so
certainly appropriate—to give examples of what might constitute that under the instructions
they’re about to receive and they can analyze this.” TIV 116. The trial court overruled the
objection. TIV 116. The prosecutor continued:

12

So examples of assault/great bodily harm. When you ... hear those
instructions, you’ll think that fits. Somebody takes a baseball bat and
hits somebody in the leg. Not in the head but in the leg. Somebody
takes a ... crow bar and hits somebody in the arm or in the hand, that
could be assault/great bodily harm. Somebody’s engaged in a fight and
they end up kicking somebody who’s laying on the ground in the rib
cage or somewhere else three or four times that causes some other
injuries, that might be assault/great bodily harm.
Picking up an 8-pound splitting maul/axe and smashing your
wife’s skull two times, that’s as far from assault/great bodily harm as
you can get. They’re on two opposite ends of the globe. [TIV 117]
Mr. Williams was found guilty of assault with intent to murder and of all other charges.
VII.

Sentencing
Before the judge pronounced sentence, Mr. Williams expressed his remorse for what he

had done:
I’d like to apologize to Christine for all the suffering and pain I’ve
done to her.... I did a terrible thing. I’m sorry. A lot of people I’ve let
down. I’m sorry. I let down Christine. I let down Christine’s family. I
let down my family. I let down myself. I let down God. I’m sorry.
I’d like to apologize to Christine. I’m sorry. I love you, I miss you, and
I hope one day you will forgive me. [S 7-8]
Mr. Williams also apologized to the Michigan State Police, the Tuscola County Sheriffs deputies,
the Tuscola County courthouse, and Ms. Williams’ individual family members by name. S 7-8.
He thanked the Tuscola County Jail for taking care of his medical needs, the Forgotten Men
Ministry, and the chapel at the jail. S 7-8.
While explaining her substantial departure, Judge Gierhart cited “lack of remorse” as a
substantial factor. S 19. She pointed to his “vigorous” defense of a divorce action brought by the
complainant. S 19-20. She added that he seemed “oddly ... unaffected” by the “carnage” he’d
caused, and seemed remorseful only that he’d been caught. S 20.

13

Judge Gierhart also pointed to the circumstances of his crime, commenting that “every
single human being who has touched this case” were “all scarred by the brutality and cruelty of
[his] actions,” and could not “unsee” the “horrific photos” of what he had done to his wife. S 20.
She also noted Dr. Nunnally’s testimony that the person-to-person violence he usually saw
consisted of “gunshot wounds, stabbings, things like that,” that he had never before “seen anyone
sustain a direct blunt force object to the head,” and that “the kinetic energy that had to be
transferred ... was very impressive.” S 23. She also noted the assault was “completely intentional,”
S 20, and asserted that Ms. Williams’ family and the community “deserve the peace of mind .. .that
come from you being incarcerated until you take your final breath.” S 24.
Judge Gierhart then pronounced sentence. For assault with intent to murder she imposed a
prison term of forty-to-eighty years—a sentence whose minimum term was more than double the
high end of his guidelines, as they were scored.
Judge Gierhart did not explain whether or nor the reasons she gave for sentencing so
harshly were accounted for by the guidelines, nor even that she was exceeding the guidelines.
Instead, she merely commented that the guidelines were now advisory, and that a sentence must
meet the test for proportionality set out in People v Milbourn. She described that test as requiring
her to “determine] ... the location of an individual case ... on the continuum from the least to the
most serious situations ... and sentencing the offender in accordance with this determination.” S
24. She “summarize[d]” the test as asking the question, “does the crime perpetrated by the
defendant shock the conscience?” She found that it did. S 24.
Mr. Williams appealed by right, seeking a new due to the instructional error and the
prosecutor’s improper argument, and in the alternative, resentencing under the standard set forth

14

in People v Milbourn, 435 Mich 630 (1990) and its progeny, and under corrected sentencing
guidelines. The Court of Appeals denied all relief.
Mr. Williams now seeks leave to appeal.

15

REASONS FOR GRANTING THE PETITION

William Williams was denied his right to due process, to present a
defense, and to a properly instructed jury where the trial court
refused to provide the requested mitigation instruction, thereby
preventing the primary factual issue at trial from being decided
by the jury
Standard of Review and Issue Preservation
The trial court sustained to the prosecutor’s objection to Mr. Williams’ request that his jury
receive the mitigating circumstances instruction provided in M Crim JI 17.04. TIV 88-90. The
issue is preserved.
This Court reviews a claim of instructional error de novo. People v Hawthorne, 474 Mich
174,179 (2006).
Discussion
If the evidence presented would support a conviction of a cognate lesser offense, the trial
court, if requested, must instruct on it.” People v Sullivan, 231 Mich App 510, 517-18 (1998).
The trial court’s refusal to instruct the jury on mitigating circumstances incorrectly and
unfairly removed a primary theory of defense from the rightful purview of the jury. Mr. Williams
acknowledged that he struck Ms. Williams in then head with a maul and sought conviction of
assault with intent to do great bodily harm less than murder (GBH), the lesser of the charged
offense of assault with intent to murder (AWIM), under two theories: (1) that he had acted in the
heat of passion when he assaulted her, thus mitigating his criminal responsibility; and (2) that he
had not intended to murder Ms. Williams when he struck her in the head with the maul. The failure
to provide the mitigating circumstances instruction denied Mr. Williams the ability to prevail on
what was likely the stronger of the two theories.
Mr. Williams was entitled to have the jury instructed on M Crim JI 17.04, which provides:
16

(1) The defendant can only be guilty of the crime of assault with intent
to commit murder if [he] would have been guilty of murder had the
person [he] assaulted actually died. If the assault took place under
circumstances that would have reduced the charge to manslaughter if
the person had died, the defendant is not guilty of assault with intent
to commit murder.
(2) Voluntary manslaughter is different from murder in that for
manslaughter, the following things must be true:
(3) First, when the defendant acted, [his] thinking must have been
disturbed by emotional excitement to the point that an ordinary person
might have acted on impulse, without thinking twice, from passion
instead of judgment. This emotional excitement must have been
caused by something that would cause an ordinary person to act rashly
or on impulse. The law does not say what things are enough to do this.
That is for you to decide.
(4) Second, the killing itself must have resulted from this emotional
excitement. The defendant must have acted before a reasonable time
had passed to calm down and before reason took over again. The law
does not say how much time is needed. That is for you to decide. The
test is whether a reasonable time passed under the circumstances of
this case.
(5) If you find that the crime would have been manslaughter had the
person died, then you must find the defendant not guilty of assault with
intent to murder [and decide whether he is guilty assault with intent to
commit great bodily harm].
The trial court held that the instruction was not appropriate because “applying an objective
reasonable man standard for determining provocation would indicate that a reasonable jury could
not come to the conclusion that there was [adequate] provocation there.” TIV 89-90.
An intentional killing is manslaughter and not murder where, “at the time of the act, [the
defendant is] disturbed or obscured by passion to an extent which might render ordinary men, of
fair average disposition, liable to act rashly or without due deliberation or reflection, and from
passion, rather than judgment.” Maher v People, 10 Mich 212, 220 (1862). Michigan courts have
held adequate provocation could be found in cases where the victim threatened to beat defendant’s

17

ass, then hit him with a bat,2 and where the defendant learned that his wife may have committed
adultery some thirty minutes before assaulting the adulterer.3
The Court of Appeals opinion appeared to hold that as a matter of law, the adequate
provocation element of the mitigation defense is only available to defendants who are first
physically assaulted by their victim or have just learned about a spouse’s adultery. But this is
simply not the case. “The determination of what is reasonable provocation is a question of fact for
the factfinder.” People v Pouncey, 437 Mich 382, 390 (1991). A reasonable jury could have
certainly concluded that the actions of Ms. Williams, “would cause an ordinary person to act rashly
or on impulse.” M Crim JI 17.04.
According to Mr. Williams, Ms. Williams yelled at him after the volume of her television
woke him up in the middle of the night when he told her to turn it down because he had to work.
She had bizarrely brought a splitting maul from the garage into her bedroom, told him that she
ought to hit him with it, and then reached for it and grabbed it immediately before he assaulted her
took it away from her and hit her with it. Ms. Williams’ threat combined with her overt steps
towards carrying out that threat could cause a reasonable person to act rashly and without due
deliberation or reflection under those circumstances.
A “verdict is undermined when the evidence clearly supports the requested lesser included
instruction that was not given to the jury.” People v Cornell, 466 Mich 335, 365 (2002).
Mr. Williams is entitled to a new trial with a properly instructed jury.

The prosecutor’s improper rebuttal argument that assault with intent
to murder should be determined based on the nature of the
2 People v Mitchell, 301 Mich App 282 (2013).
3 Maher v People, 10 Mich 212 (1862).

18

assault and not the defendant’s intent, which the trial court
appeared to endorse and agree with, denied Mr. Williams a fair
trial. Alternatively, defense counsel performed deficiently in
failing to fully articulate the grounds for his objection to the
prosecutor’s improper argument and Mr. Williams was
prejudiced as a result.
Standard ofReview and Issue Preservation
When the prosecutor began to offer examples of assaults that he asserted would qualify as
GBH, Mr. Williams’ counsel objected that the prosecutor was “going off something that wasn’t
presented during the trial.” TIV 116. The objection is preserved. See People v Brown, 294 Mich
App 377, 382 (2011).
“Issues of prosecutorial misconduct are reviewed de novo to determine whether the
defendant was denied a fair and impartial trial.” People v Bennett, 290 Mich App 465,475 (2010).
To the extent that defendant’s stated basis for objection was insufficient to put the trial
court on notice as to the basis for his objection, defense counsel rendered ineffective assistance of
counsel, necessitating a new trial. People v Pickens, 446 Mich 298, 314 (1994).
Ineffective assistance of counsel claims are reviewed de novo on the existing record. Id. at
359; People v Ginther, 390 Mich 436, 443 (1973).
Discussion
Reversible error occurs where the prosecutor misstates the law in closing argument. People
v Quinn, 194 Mich App 250, 253 (1992) (defendant was entitled to a new trial, even absent
objection, where the prosecutor argued that evidence admitted for a limited purpose under MRE
404b could be used as substantive evidence of defendant’s guilt); People v Vaughn, 128 Mich App
270, 272-73 (1983) (defendant was entitled to a new trial, even absent objection, where the
prosecutor suggested in closing argument that the jury utilize his prior convictions as substantive
evidence of his assaultive nature, in violation of MRE 609).
19

Where, as in this case, mitigating circumstances could not be considered by the jury,
whether a defendant is guilty of AWIM or GBH is determined based on whether the defendant
intended to murder the victim when he committed the assault. MCL 750.83; MCL 750.84. During
his closing defense counsel argued only that the prosecutor had failed to establish beyond
reasonable doubt that Mr. Williams intended to murder Ms. Williams, and that Mr. Williams
should therefore be convicted of GBH. In rebuttal the prosecutor argued that Mr. Williams had not
committed GBH by listing examples of assaults that he believed would constitute GBH that were
less violent than the assault Mr. Williams had committed, and also claimed: “Picking up an 8pound splitting maul/axe and smashing your wife's skull two times, that’s as far from assault/great
bodily harm as you can get. They’re on two opposite ends of the globe.” TIV 117. This argument
was intended to, and did, cause the jury to focus solely on the nature of the assault Mr. Williams
committed, and to ignore Mr. Williams’ argument that intent to murder had not been established.
The Court of Appeals found nothing improper about the argument, concluding that the
prosecutor was simply arguing that Mr. Williams’ intent to kill could be inferred from his actions,
and the prosecutor was allowed to respond to the defendant’s closing argument.
On the first point, the prosecutor’s offer for why he should be allowed to provide the jury
of list of offenses that he claimed would qualify as GBH was provided in front of the jury, and
makes explicit that his point was not that intent could be inferred from Mr. Williams’ actions: “it
is an argument by way of what could constitute assault/great bodily harm. And that’s being
presented to the jury, so certainly appropriate to give examples of what might constitute that under
the instructions they’re about to receive.” TIV 116. He told the jury that GBH did not “fit” the
assault Mr. Williams committed, TIV 117, not that it could infer Mr. Williams’ intent from the
nature of the assault. Further, the assaults the prosecutor listed are more readily characterized as

20

felonious assaults or aggravated assaults than GBH. However, because the intent of the defendant
is what is relevant in determining which assaultive crime the defendant is guilty of, the examples
provided could very well constitute aggravated assault, felonious assault, GBH, or AWIM. The
nature of the assault does not in itself determine the defendant’s intent or alleviate the prosecutor
of his burden to establish intent beyond reasonable doubt.
Regarding the Court of Appeals’ second defense of the argument, that prosecutors are
allowed to respond to a defendant’s argument, defense counsel argued only that Mr. Williams did
not intend to kill his wife when he assaulted her. TIV 108, 113-14. Counsel did not open the door
to the prosecutor’s improper rebuttal by simply asserting that an element of the charge had not
been proven. Counsel did not claim that a defendant can never be convicted of AWIM unless he
admits his intent to kill or uses a firearm, or his victim becomes braindead as a result of the assault.
A properly instructed jury can often be said to mitigate improper argument. In this case,
however, the trial court’s ruling admitting this argument and instruction of how to construe the
parties’ arguments actually increased the prejudice Mr. Williams sustained because it indicated
that the prosecutor’s legal argument that GBH is determined based on the nature of the assault was
proper, and further confused the actus reus and the mens rea requirements in the minds of the jury.
The trial court accepted the following reasoning for the validity of the prosecutor’s argument in
overruling Mr. Williams’ objection: “it is an argument by way of example of what could constitute
assault/great bodily harm....... [T]o give examples of what might constitute that under the
instructions they’re about to receive and they can analyze that.” TIV 116. By accepting this as a
basis, the trial court endorsed as valid the prosecutor’s position the Mr. Williams’ assault could
not constitute GBH under the instructions they were about to receive. The trial court later instructed
the jury that “the lawyer’s statements and arguments are not evidence. They are only meant to help

21

you understand the evidence and each side’s legal theories.” TIV 123. Since the trial court had
previously ruled it was proper for the prosecutor to give examples of that “might constitute” GBH,
this instruction actually amplified the prejudice caused by the prosecutor’s improper argument,
rather than diminishing it.
Because the prosecutor and, indirectly, the trial court incorrectly instructed Mr. Williams’
jury that the difference between GBH and AWIM can be determined by the nature of the assault
committed without regard to the defendant’s intent, Mr. Williams was denied his right to a fair
trial. He is therefore entitled to a new trial.
Alternatively, while defense counsel objected to the prosecutor’s argument, the grounds he
provided for his objection were not precise. To the extent counsel’s failure to clearly articulate the
objection caused the trial court to overrule his objection, Mr. Williams was prejudiced by counsel’s
failure. A defendant accused of a crime has the right under the federal and state constitutions to
the effective assistance of counsel. US Const, Amend VI; Const 1963, Art 1, § 20; Strickland v
Washington, 466 US 668 (1984). To prevail on an ineffective assistance of counsel claim, a
defendant must first “show that counsel’s performance was deficient,” and that “there is a
reasonable probability that, but for counsel’s error, the result of the trial would have been
different.” Id. at 687-88.
Defense counsel clearly recognized that the prosecutor’s argument was improper and
sought to have it excluded from the jury. Counsel’s failure to clearly object was not strategic, but
rather an apparent misapprehension of the law. In failing to clearly specify the correct grounds for
the objection defense counsel rendered deficient performance. See, e.g., People v Dixon, 263 Mich
App 393, 397-98 (2004) (failure to lay proper foundation for evidence sought to be admitted
constitutes deficient performance).

22

To the extent that counsel’s failure to adequately object caused the trial court to allow the
prosecutor to present improper argument to the jury, defense counsel’s errors prejudiced Mr.
Williams by all but eliminating any chance he would be acquitted. Mr. Williams is entitled to a
new trial. See, e.g., People v Stanaway, 446 Mich 643, 687 (1994).

23

Mr. Williams is entitled to resentencing where several offense variables
were incorrectly scored, resulting in an incorrect minimum
guideline range.
Standard of Review and Issue Preservation
Mr. Williams sought remand in the Court of Appeals for correction of his guidelines and
resentencing under the corrected guideline range. The issue is preserved. MCL 769.34(10).
“Under the sentencing guidelines, the circuit court’s factual determinations are reviewed
for clear error and must be supported by a preponderance of the evidence. Whether the facts, as
found, are adequate to satisfy the scoring conditions prescribed by statute, i.e., the application of
the facts to the law, is a question of statutory interpretation, which an appellate court reviews de
novo.” People v Hardy, 494 Mich 430, 438 (2013).
Discussion
Due process requires that a defendant be sentenced on the basis of accurate information.
Townsend v Burke, 334 US 736 (1948); People v Francisco, 474 Mich 82, 86 (2006). US Const
Amends V, XIV; Mich Const 1963, art 1, §17.
Based on mistakes in the scoring of Offense Variables (“OV”) 1, 2, 5, 7, and 10, Mr.
Williams’ minimum guideline range was incorrectly set at 135 to 225 months. Correction of these
Offense Variables will lower Mr. Williams’ guidelines to 126 to 210 months. Even though the trial
court exceeded the incorrectly scored guidelines in sentencing Mr. Williams, he is still entitled to
resentencing so that the trial court can incorporate the properly scored guidelines in its sentencing
decision. People v Geddert, 500 Mich 859 (2016).
A.

OV 1 - Aggravated Use of Weapon
Mr. Williams was incorrectly assessed 25 points under OV 1, indicating that “a victim was

cut or stabbed with a knife or other cutting or stabbing weapon.” MCL 777.3 l(l)(a).
24

Dr. Nunnally, a surgeon who treated Ms. Williams at McLaren Lapeer, and who was
qualified as an expert at trial, testified that “[g]oing by the CAT scan and the ... reconstructions
that we did, it was at least two blows to the skull based on the fracture pattern.” Til 165. Regarding
Ms. Williams’ injury, Dr. Nunnally testified, “[i]t’s not a laceration. It’s not a stabbing wound.
It’s not a knife injury.” TII 177. Dr. Nunnally compared the wound to Ms. Williams’ head to the
type of injury that would be caused by a hammer, as opposed to the type of injury that would be
caused by a knife. TII 177-78. He also described the cause of injury as “a direct blunt force object
to the head.” TII 164-65. Thus, Ms. Williams was not “cut or stabbed with a knife or other cutting
or stabbing weapon.”
Therefore, OV 1 should have been scored 10 points, indicating that the “victim was touched
by any ... type of weapon,” other than a firearm, knife, or other cutting or stabbing weapon. MCL
777.31(1 )(c).
B.

OV 2 - Lethal Potential of Weapon Possessed or Used
Mr. Williams was incorrectly assessed 5 points under OV 2, indicating that Mr. Williams

“possessed or used a ... knife or other cutting or stabbing weapon.” MCL 777.32(l)(d).
A splitting maul or axe, as it was sometimes referred, is not a cutting or stabbing weapon.
It is a wedge, that when used as a weapon, as it was here, causes injury by way of “a direct blunt
force object to the head.” TII 164-65.
Therefore, OV 2 should have been scored 1 point, indicating that Mr. Williams “possessed
or used any other potentially lethal weapon.” MCL 777.32(l)(e).

25

c.

OV 5 - Psychological Injury to Victim’s Family
Mr. Williams was incorrectly assessed 15 points under OV 5, indicating that “[sjerious

psychological injury requiring professional treatment occurred to a victim’s family.” MCL
777.35(l)(a).
There is nothing in the Presentence Investigation Report about Ms. Williams’ family
sustaining any psychological injury. Ms. Williams’ sister, Janine Moran, testified at trial and said
nothing about psychological injury to anyone other than Ms. Williams. Till 175-192. Ms. Moran
also provided a statement at the sentencing hearing, and said nothing about having endured a
psychological injury requiring professional treatment, only that “Christine’s family has been
traumatized by Williams’ actions,” they are “less trusting of others,” and that Ms. Moran feels
“profound sadness” when she considers Ms. Williams’ future. S 10-11. From this, there is simply
insufficient evidence for the court to have determined that Ms. Williams’ family endured
psychological injuries that would necessitate professional treatment. See People v Lockett, 295
Mich App 165, 182-83.
Therefore, OV 5 should have been scored at 0 points. MCL 777.35(1)(B).
D.

OV 7 - Aggravated Physical Abuse
Mr. Williams was incorrectly assessed 50 points under OV 7, indicating that “[a] victim

was treated with sadism, torture, excessive brutality, or similarly egregious conduct designed to
substantially increase the fear and anxiety suffered by during the offense.” MCL 777.37(1 )(a).
“OV 7 is designed to respond to particularly heinous instances in which the criminal acted
to increase [a victim’s] fear by a substantial or considerable amount.” People v Glenn, 295 Mich
App 529, 536 (2012), rev'd on other grounds by People v Hardy, 494 Mich 430, 434 (2013).

26

All conduct that could potentially warrant scoring OV7 at 50 points requires a showing of
the defendant’s intent to increase their victim’s pain, suffering, fear, etc.,4 with the possible
exception of the defendant’s treatment of a victim with excessive brutality. There was no such
intent here. There is no evidence that Mr. Williams brandished the maul and threatened Ms.
Williams with it before striking her. To the contrary, he grabbed it and immediately hit her with
it. The trial court “was sure” that Mr. Williams was “confident that she was dead” after striking
Ms. Williams with the maul, so it did not conclude that he left Ms. Williams alive and unattended
to increase her suffering. S 21.5
Nor does the record show excessive brutality. For purposes of OV 7, “excessive brutality
means savagery or cruelty beyond even the ‘usual’ brutality of a crime.” Glenn, 295 Mich App at
533. Mr. Williams’ assault can properly be characterized as brutal and cruel, but so can nearly all
assaults committed with the intent to murder. If the jury was correct that Mr. Williams did intend
to murder Ms. Williams, then he attempted to do so swiftly, using the most effective instrument to
do so at his disposal. His assault was not an “excessively brutal” method of achieving the goal of
murder, as it would have been had he struck Ms. Williams in multiple places other than her head
or used a smaller instrument, such as a hammer. See, e.g., People v Wilson, 265 Mich App 386,
397-99 (2005) (trial court correctly found excessive brutality where defendant convicted of GBH
attacked victim with several weapons, including a knife and broken glass candle holder, choked
her until she lost consciousness, dragged her around, beat her, and kicked her in the head, back
and face).

4 Sadism, by its terms, requires the intent to produce suffering or to gratify the defendant. MCL 777.37(3). Torture
requires “the intent to cause cruel or extreme ... pain and suffering.” MCL 750.85(1). The fourth catch-all provision
requires that the defendant’s conduct be “designed to increase the fear and anxiety of a victim.” MCL 777.37(l)(a).
5 Further, courts may not consider defendant’s “conduct after completion of the sentencing offense.” People v
McGrow, 484 Mich 120, 134 (2009).
27

While certainly more shocking given its rarity, there is no reason that hitting someone in
the head with a maul is any more brutal than shooting someone in the head or stabbing someone
in the heart. If the object is murder, the assault is inherently brutal.
Therefore, OV 7 should have been scored at 0 points. MCL 777.37(1 )(b).
E.

OV 10 - Exploitation of Domestic Relationship
Mr. Williams was incorrectly assessed 10 points under OV 10, apparently indicating that

he “exploited ... a domestic relationship,” when he assaulted Ms. Williams. MCL 777.40(l)(b).
“‘Exploit’ means to manipulate a victim for selfish or unethical purposes.” MCL 777.40(3)(b).
While Mr. Williams and Ms. Williams were in a domestic relationship, there was no
showing that he exploited this relationship to commit the sentencing offense. Surprisingly, there
is no existing precedent deciding whether the mere existence of a domestic relationship is
sufficient to assess 10 points under OV 10 whenever a domestic partner is assaulted, but MCL
777.40(l)(b) explicitly requires exploitation o/the domestic relationship.
The assault occurred because of Mr. and Ms. Williams’ domestic relationship, but did not
involve the exploitation of their domestic relationship or the manipulation of Ms. Williams. Mr.
Williams was in the home with Ms. Williams because he lived there. He went into her bedroom
because they were in an argument. He assaulted her because she threatened him and he “lost it.”
There was simply no exploitation or manipulation demonstrated in the record.
Therefore, OV 10 should have been scored at O points. MCL 777.40(1 )(d).

28

'k'k’k'k

Resentencing is required because correcting the scoring errors will reduce the minimum
guideline range. See Francisco, 474 Mich at 91. This is true even though the trial court exceeded
the incorrectly scored guidelines because Mr. Williams is entitled to be resentenced with
consideration of accurate information, including the correct guideline range. Geddert, 500 Mich
859. As the guidelines are presently scored, the OV total is 175, the OV Level is VI, and the
sentencing range (for cell C-VI) is 135 to 225 months. Correction of OVs 1, 2, 5, 7, and 10 as
requested above would lower Mr. Williams total OV Score to 81, and lower his OV Level to V.
MCL 777.62. This will reduce Mr. Williams’ recommended minimum sentence range (for cell CV) to 126 to 210 months. MCL 777.62.

29

Mr. Williams is entitled to resentencing because the trial court violated
the principle of proportionality when it sentenced him
Standard of Review
Sentences that depart from the guidelines are reviewed for reasonableness. People v
Lockridge, 498 Mich 358 (2015). “[AJppellate review of departure sentences for reasonableness
requires review of whether the trial court abused its discretion by violating the principle of
proportionality set forth in... [People] v Milbourn[, 435 Mich 630 (1990)].” People v Steanhouse,
500 Mich 453, 477 (2017).
Discussion
Without explaining why the sentencing guidelines did not adequately account for the
considerations that caused her to depart in sentencing Mr. Williams, Judge Gierhart imposed a
departure sentence more than twice the high end of the AWIM guidelines—a sentence so long that
it would have exceeded even the guidelines for murder. This sentence was unreasonable because
it violated Milbourn’s requirement that a sentence must be “proportionate to the seriousness of the
circumstances surrounding the offense and the offender,” Steanhouse, 500 Mich at 460, quoting
Milbourn, 435 Mich at 636. Judge Gierhart apparently based its departure on the brutality of Mr.
Williams’ crime, and her belief that he lacked remorse for his actions, which she believed were
intentional. These factors, to the extent they bear any record support, were already taken into
account in Mr. Williams’ sentencing guidelines. Judge Gierhart provided no explanation as to why
the offense variables were inadequately accounted for in the guidelines. Moreover, while she
accounted for the seriousness of the offense—half of Milbourn's proportionality inquiry—she
neglected entirely to take account of the other half, the seriousness of the offender.

30

Factors that may be considered under the principle of proportionality include, but are not
limited to: (1) the seriousness of the offense; (2) factors that were inadequately considered by the
guidelines; and (3) factors not considered by the guidelines, such as the relationship between the
victim and the aggressor, the defendant’s misconduct while in custody, the defendant’s expression
of remorse, and the defendant’s potential for rehabilitation. People v Steanhouse (On Remand),
322 Mich App 233, 238-39 (2017) (citing People v Lawhorn, 320 Mich App 194, 207 (2017)).
Even though sentencing within the guidelines is recommended rather than compulsory,
“departures from the guidelines, unsupported by reasons not adequately reflected in the guidelines
variables, should nevertheless alert the appellate court to the possibility of a misclassification of
the seriousness of a given crime by a given offender and a misuse of the legislative sentencing
scheme.” Milbourn, 435 Mich at 659. “Where there is a departure from the sentencing guidelines,
an appellate court’s first inquiry should be whether the case involves circumstances that are not
adequately embodied within the variables used to score the guidelines.” Id. at 659-60. Where
considerations are already accounted for in the guidelines, those same considerations cannot justify
an upward departure absent sufficient “explanation for why they were given inadequate weight by
the guidelines.” Steanhouse (On Remand), 322 Mich App at 258.
Almost all the reasons Judge Gierhart gave for her sentence were already “adequately
embodied within the variables used to score the guidelines.” Milbourn, 435 Mich at 659-60. A
prime example is what the Judge Gierhart called the “brutality and cruelty” of Mr. Williams’
actions. S 20. That same conduct had already led her to impose the maximum 50-point score for
OV 7, which should only be scored in cases where there is “savagery or cruelty beyond even the
‘usual’ brutality of a crime,” and which by itself is enough to raise a Class A offender from OV

31

Level I to Level III. Glenn, 295 Mich App at 533; see MCL 777.37(l)(a). Thus, the guidelines
already took into account the “brutality and cruelty” of Mr. Williams’ crime.
That the offense was a “completely intentional act” S 20, was also, of course, fully
accounted for by the guidelines. Had the jury concluded that Mr. Williams had not acted
intentionally, and with the specific intent to murder, it would not have convicted him of AWIM
and his sentencing guidelines would not have been scored for a Class A Offense, but instead scored
for a less serious one.6 Thus, the guidelines had also already taken into account the intentional
nature of Mr. Williams’ crime.
The judge’s belief that Mr. Williams had displayed no “genuine remorse” and thus “would
do the same thing all over again ... if... given a similar opportunity,” S 19, was partly accounted
for by the guidelines, but the main problem with this issue as a justification for the sentence was
that it was not supported, and was actually contradicted by the record. Mr. Williams’ allocution
was an expression of remorse. The judge may not have believed it, but the detective that Mr.
Williams confessed to testified that Mr. Williams “seemed like” - not that he “said that” - he
wished he had not assaulted his wife and wished he had not “ma[d]e that choice that moment.”
Till 162. He volunteered to the detective that he ruined his wife’s life when he was asked if he
was sorry. Till 172; Px 57, 26.
The evidence the judge cited in support of her view that Mr. Williams did not have remorse
was that he “vigorously contested] the divorce case.” S 19-20. All that exists in the record relating
to Mr. Williams’ and Ms. Williams’ divorce is that “[a]ll marital assets will go to Christine.” PSI,

6 Assault with Intend to do Great Bodily Harm is a Class D Offense, for which the guidelines-scoring used here
would have yielded a 29-57-month minimum-sentence range. His maximum possible sentence would have been ten
years, one-quarter of his current minimum sentence. MCL 750.84; MCL 777.16d; MCL 777.65.
32

16. In other words, the record does not show that the divorce was contested, much less
“vigorously” contested, and fails to show lack of remorse.
The other evidence the judge cited in support of her view that Mr. Williams was not
remorseful were his “emotionless” maimer and his “laughable and pathetic ... story that there was
a home invasion.” Mr. Williams’ pathetic story was accounted for by the guidelines: it resulted in
10 points being assessed under OV 19, and also raised Mr. Williams’ Prior Record Variable Level
from A to C (by causing Prior Record Variable 7 to be scored 20 points instead of 0). S 22. MCL
777.49(c); MCL 777.57. This added years to Mr. Williams’ recommended guidelines range. MCL
777.62. His stoic or mechanical manner—described by the judge as “emotionless”—offers little
support for the judge’s conclusion of remorselessness. His actions after the assault, which included
sitting in his car for more than an hour before heading to work, and then going about his day as
though nothing had happened, were consistent with a man in shock who could not process what
he had done. Nor, considering the judge’s determination that Mr. Williams was already “confident
she was dead,” S 21, was his failure immediately to call 9-1-1 evidence of remorselessness. S 21.
The judge’s concern for community safety was also inconsistent with the record, which
showed a 59-year-old defendant with no previous criminal convictions, S 24, who had committed
a single assault against a single person and shown no indication of general criminality.
The judge’s failure even to mention Mr. Williams’ previously spotless criminal record was
also indicative of her failure to engage in the entirety of Milbourn's command: that is, to consider
not just the seriousness of the offense but also the seriousness of the offender. Milbourn, 435 Mich
at 636. As the Milbourn court observed, “the Legislature, in setting a range of allowable
punishments for a single felony, intended persons whose conduct is more harmful and who have
more serious prior criminal records to receive greater punishment than those whose criminal

33

behavior and prior record are less threatening to society.” Id. at 651. Thus, where the guidelines
do not take into account risk to society posed by a “a one hundred-time repeat offender,” the
individual circumstances of the offender may warrant a substantial upward departure. Id. at 657.
Conversely, “the facts of [Milbourn] did not... justify such a severe sentence” as was imposed by
the trial court given that “Mr. Milbourn was a young man, and at the time the instant offense was
committed, he had no criminal record.” Id. at 668. Mr. Williams, who at age 59 had many more
opportunities than Milbourn to amass a criminal record, had nevertheless never before been
convicted of any crime. The judge gave that mitigating factor no consideration at all, and thereby
ignored one-half of the Milbourn proportionality equation.7
Even if a departure were warranted, the extent of Judge Gierhart’s departure would not
have been. The extent of a guideline departure must also conform to the principle of
proportionality. “Therefore, even in cases in which reasons exist to justify a departure sentence,
the trial court’s articulation of the reasons for imposing a departure sentence must explain how the
extent of the departure is proportionate to the seriousness of the circumstances surrounding the
offense and the offender.” Steanhouse (On Remand), 322 Mich App at 239, citing People v Smith,
482 Mich 392, 304 (2008). Smith, 482 Mich at 304 requires: “When departing, the trial court must
explain why the sentence imposed is more proportionate than a sentence with the guidelines
recommendation would have been.”
The judge here committed error warranting resentencing simply by providing no
explanation as to how the extent of the departure was proportionate, or how it was more

7 The judge offered one other consideration that appears to reflect a fundamental misreading of Milbourn. She
summarized Milbourn as asking “does the crime perpetrated by the defendant shock the conscience?” ST, 24. But
while Milbourn does mention the phrase “shock the conscience,” it does so in a Very different context: by
abandoning the “shock the conscious” test that formerly had guided an appellate court’s review of a judge’s choice
of sentence. Milbourn, 435 Mich at 636.

34

proportionate than a sentence within the recommended guidelines would have been. See People v
Dixon-Bey, 321 Mich App 490, 525-26 (2017). And given that, as discussed above, the guidelines
already took into account most or all of the circumstances cited by the judge in support of her
sentencing decision, it is difficult to imagine how the substantial extent of the departure did not
violate the principle of proportionality.
Comparison to the murder guidelines illustrates the point. Mr. Williams was sentenced
above what his guidelines would have been if his wife had died and he had been convicted of
second-degree murder. Had his wife died, Mr. Williams’ guidelines as currently scored would
have yielded a second-degree-murder sentencing range of 270 months to 450 months to life. MCL
777.61. The minimum term he received here—480 months—thus would have been a guidelines
departure even for a murder sentence.8 The circumstances of this case do not justify sentencing
Mr. Williams more harshly than if he had actually killed Ms. Williams. Ms. Williams is far from
dead. According to her sister, she is disabled, but functional. At the time of the trial, she could
carry on conversations, walk for short distances, and watch television, one of her favorite activities,
Till 175, though “[tjhere are times where she has double vision.” Till 179. She has no memory of
being assaulted. Till 180.
The trial court’s sentencing decision violated the principle of proportionality. It was
excessive, was not justified by the circumstances of the offense and the offender, and constituted
an abuse of discretion.

8 While, as the Court of Appeals noted, Mr. Williams could have received a life sentence, this would have provided
him the opportunity for early release after fifteen years. MCL 791.234(7)(a). Judge Gierhart acknowledged that her
intent was to impose a sentence that ensured Mr. Williams would be “incarcerated until you take your final breath.”
S 24. A life sentence would have likely allowed the Parole Board to make this decision.
35

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

f

fO

24>2j0

36

